1875 K Street, N.W.
Washington, DC 20006-1238
Tel: 202 303 1000
Fax: 202 303 2000

April 6, 2020
VIA PRIORITY MAIL AND ELECTRONIC FILING
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
Re:

Phoenix v. Regions Bank, No. 19-815

Dear Mr. Harris:
I represent petitioner in the above-captioned case. Pursuant to the Court’s order of March 19,
2020, addressing the ongoing public health concerns relating to COVID-19, I hereby request a 7-day
delay of the distribution of the petition for a writ of certiorari in this case. The brief in opposition was
filed on March 27, 2020, and the petition is currently scheduled to be distributed on April 15, 2020. A
7-day delay would result in the petition being scheduled for distribution on April 22, 2020. This
additional time is warranted because we anticipate that COVID-19 will lead to logistical challenges in
printing the reply and delivering it to the Court. Counsel for respondent has no objection to this
request.
Thank you for your attention to this matter.
Sincerely,

Mark T. Stancil
cc: John A. Anthony, Esq.

N EW Y ORK

W ASHINGTON

H OUSTON

P ALO A LTO

S AN FRANCISCO

C HICAGO

P ARIS

L ONDON

F RANKFURT

B RUSSELS

M ILAN

R OME

